158

963 FEDERAL REPORTER, 3d SERIES

randa-Dı́az, 942 F.3d at 43; Flores-Machicote, 706 F.3d at 25; Gallardo-Ortiz, 666
F.3d at 811. Context matters, and the offense conduct in this case was egregious;
as we have said, it involved the possession
of two machine guns and four extended
magazines on the heels of a previous felonin-possession conviction. As if to rub salt in
an open wound, the appellant committed
the offenses of conviction while he was
serving a supervised release term incident
to that federal felon-in-possession conviction. And, finally, the appellant committed
these new offenses against a backdrop of
repeated probation violations.
[36] Facts are stubborn things, and a
sentencing court is free to draw reasonable
inferences from them. See United States v.
Montañez-Quiñones, 911 F.3d 59, 67 (1st
Cir. 2018), cert. denied, ––– U.S. ––––, 139
S. Ct. 1388, 203 L.Ed.2d 620 (2019).
Viewed through this lens, we deem fully
supportable the findings of the court below
that the appellant’s offenses were serious;
that the prospect of the appellant’s recidivism was real; that the need to protect the
public was apparent; and that the appellant’s earlier interactions with the judicial
system seem to have taught him no lessons. Given these supportable findings, we
cannot say that a sixty-month sentence
was substantively unreasonable. See
Flores-Machicote, 706 F.3d at 25; Gallardo-Ortiz, 666 F.3d at 818. Consequently,
the district court’s imposition of such a
sentence was within the encincture of its
discretion.
III.

CONCLUSION

We need go no further. For the reasons
elucidated above, the appellant’s sentence
is

UNITED STATES of America,
Appellee,
v.
Roberto MENDOZA-Sánchez,
Defendant, Appellant.
No. 19-1091
United States Court of Appeals,
First Circuit.
June 30, 2020
Background: Defendant, a Mexican citizen, pled guilty to one count of reentry
after deportation. Prior to sentencing he
filed a motion to withdraw his plea and
dismiss the indictment. The United States
District Court for the District of New
Hampshire, Joseph A. DiClerico, Senior
District Judge, denied the motion. Defendant appealed.
Holdings: The Court of Appeals, Torruella, Circuit Judge, held that the omission of
the initial hearing date and time in the
notice to appear did not deprive the immigration court of jurisdiction over defendant’s prior removal proceeding, so as to
render the prior removal order, upon
which his reentry after deportation conviction was premised, invalid.
Affirmed.

1. Criminal Law O1149
Review of a district court’s denial of a
plea-withdrawal motion is for abuse of discretion.
2. Criminal Law O274(3.1), 1149

Affirmed.

,

To make the assessment of whether
the denial of a plea-withdrawal motion is
an abuse of discretion, the Court of Ap-

Appendix A
1

U.S. v. MENDOZA
Cite as 963 F.3d 158 (1st Cir. 2020)

peals considers the strength of the reasons
offered in support of the motion, keeping
in mind that a defendant may withdraw his
plea so long as he shows that there is a
fair and just reason for requesting the
withdrawal.
3. Criminal Law O1139
In determining whether the defendant
offered a fair and just reason for seeking
to withdraw his plea, the Court of Appeals
reviews the district court’s legal conclusions de novo.
4. Criminal Law O1139
When reviewing the trial court’s denial of a motion to dismiss an indictment, the
Court of Appeals reviews questions of law
de novo.
5. Criminal Law O1139, 1158.3
Any factual findings made by the district court in ruling on motion to dismiss
indictment are reviewed for clear error,
and its ultimate ruling for abuse of discretion.
6. Aliens, Immigration, and Citizenship
O337
The omission of the initial hearing
date and time in the notice to appear did
not deprive the immigration court of jurisdiction over defendant’s prior removal proceeding, so as to render the prior removal
order, upon which his reentry after deportation conviction was premised, invalid and
warrant dismissal of the indictment; the
regulation that set forth the process by
which the immigration court obtained jurisdiction over a removal proceeding did
not require that the time and place of the
initial hearing be included in the notice to
1.

In Pereira, the Supreme Court held that the
stop-time rule, which governs the length of an
alien’s continuous physical presence in the
United States for the purpose of an application for cancellation of removal, applies once
‘‘the alien is served a notice to appear under
[8 U.S.C. § 1229(a)].’’ 138 S. Ct. at 2110. It

159

appear in order to commence removal proceedings. 8 C.F.R. § 1003.14.

APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR THE
DISTRICT OF NEW HAMPSHIRE
[Hon. Joseph A. DiClerico, U.S. District
Judge]
Christine DeMaso, Assistant Federal
Public Defender, for appellant.
Seth R. Aframe, Assistant United States
Attorney, with whom Scott W. Murray,
United States Attorney, was on brief, for
appellee.
Before TORRUELLA, BOUDIN, and
KAYATTA, Circuit Judges.
TORRUELLA, Circuit Judge.
Defendant-Appellant Roberto MendozaSánchez (‘‘Mendoza’’), a Mexican citizen,
pleaded guilty to one count of reentry
after deportation, in violation of 8 U.S.C.
§ 1326(a). Prior to sentencing, and in the
wake of the Supreme Court’s decision in
Pereira v. Sessions, ––– U.S. ––––, 138 S.
Ct. 2105, 201 L.Ed.2d 433 (2018),1 Mendoza moved to withdraw his plea and dismiss
the indictment, believing that the removal
order underlying his conviction for reentering after deportation had been rendered
null and void. According to Mendoza, the
immigration court lacked jurisdiction to
issue the removal order in the first place
because his notice to appear -- the document served on a noncitizen and filed with
the immigration court that initiates removal proceedings -- did not specify the date
concluded that a notice to appear ‘‘that does
not inform a noncitizen when and where to
appear for removal proceedings is not a ‘notice to appear under section 1229(a)’ and
therefore does not trigger the stop-time rule.’’
Id.

Appendix A
2

160

963 FEDERAL REPORTER, 3d SERIES

or time of the removal hearing. The district court denied the motion, finding that
Mendoza did not satisfy any of the prerequisites set forth in 8 U.S.C. § 1326(d) for
collaterally attacking the removal order
during the criminal proceedings, and it
sentenced Mendoza to time served. Mendoza now appeals this denial. He contends
that: (1) the immigration court lacked jurisdiction to consider his removal because
the notice to appear served on him did not
include the date and time of the hearing;
and (2) if the immigration court lacked
jurisdiction, then for that reason he need
not satisfy the requirements of section
1326(d) in order to successfully challenge
in this subsequent criminal proceeding the
order resulting in his removal. Because we
conclude that the immigration court did
not lack jurisdiction, we reject Mendoza’s
appeal without needing to consider whether he would need to satisfy section 1326(d)
if he could show that the immigration
court lacked jurisdiction over his removal.

Mendoza to appear in the Boston immigration court in seven days -- on June 4, 2014,
at 8:00 a.m. -- for his removal proceeding.
According to annotations on the document,
personal service was made by delivery to
Mendoza’s attorney or representative and
to DHS. However, the name of his attorney on the document was inexplicably
crossed out. At the hearing, Mendoza requested voluntary departure, but the immigration judge ordered him removed to
Mexico. Mendoza subsequently waived any
appeal. Ultimately, he was deported on
June 26, 2014.

I.

II.

Mendoza is a native and citizen of Mexico. In 2003 and 2009, he was arrested for
being unlawfully present in the United
States and was granted voluntary departure to Mexico on both occasions. Mendoza
returned to the United States without approval later in 2009.

On December 13, 2017, a grand jury
sitting in the U.S. District Court for the
District of New Hampshire returned a
one-count indictment charging Mendoza
with reentry after deportation, in violation
of 8 U.S.C. § 1326(a). Mendoza pleaded
guilty to the offense on May 31, 2018.

On May 7, 2014, U.S. Immigration and
Customs Enforcement (‘‘ICE’’) agents arrested Mendoza in New Hampshire. The
next day, the U.S. Department of Homeland Security (‘‘DHS’’) personally served
Mendoza with a notice to appear, which
informed him that he was being charged
with removability based on his unlawful
presence in the United States and directed
him to appear before an immigration judge
in Boston at an unspecified date and time.
On May 28, 2014, the immigration court
issued a notice of hearing, which directed

While Mendoza awaited sentencing, the
Supreme Court decided Pereira, 138 S. Ct.
at 2105. As a result, Mendoza filed a motion to withdraw his guilty plea and dismiss the indictment, contending that, under Pereira, the notice to appear in his
underlying immigration case was defective
because it failed to include the date and
time of the removal hearing and, consequently, that defect ‘‘deprive[d] the immigration court of jurisdiction to issue [the
removal order].’’ In Mendoza’s view, because the 2014 removal was invalid, he was

Years later, on November 28, 2017, New
Hampshire State Police conducted a stop
of a commercial vehicle. Mendoza was the
driver. He admitted to the state trooper
that he did not have a driver’s license, that
he was unlawfully present in the United
States, and that he had been previously
deported. After confirming his identity,
ICE arrested Mendoza.

Appendix A
3

161

U.S. v. MENDOZA
Cite as 963 F.3d 158 (1st Cir. 2020)

legally innocent of reentry after deportation.
The district court denied Mendoza’s motion, rejecting his argument that the immigration court lacked subject-matter jurisdiction in 2014.2 It further concluded that,
in any event, Mendoza had to satisfy the
requirements set forth in 8 U.S.C.
§ 1326(d) in order to challenge the validity
of the underlying removal order during his
criminal case, which Mendoza had failed to
do. Thus, the court held that Mendoza
could not withdraw his guilty plea or challenge the indictment. This appeal ensued.
III.
[1–3] Our review of a district court’s
denial of a plea-withdrawal motion is for
abuse of discretion. United States v. Caramadre, 807 F.3d 359, 367 (1st Cir. 2015).
To make that assessment, we consider ‘‘the
strength of the reasons offered in support
of the motion,’’ keeping in mind that a
defendant may withdraw his plea so long
as he shows that there is ‘‘a fair and just
reason’’ for requesting the withdrawal.
United States v. Powell, 925 F.3d 1, 4 (1st
Cir. 2018); see United States v. GonzálezArias, 946 F.3d 17, 28 (1st Cir. 2019). ‘‘In
determining whether the defendant offered
such a ‘fair and just reason,’ ’’ we review
the district court’s legal conclusions de
novo.Powell, 925 F.3d at 4 (citing United
States v. Gates, 709 F.3d 58, 69 (1st Cir.
2013)).
[4, 5] Similarly, ‘‘[w]hen reviewing the
trial court’s denial of a motion to dismiss
an indictment, we review questions of law
de novo.’’ United States v. Doe, 741 F.3d
217, 226 (1st Cir. 2013) (citing United
States v. López-Matı́as, 522 F.3d 150, 153
2.

The district court aptly noted that there was
a split among the lower courts on whether
removal orders entered after a defective notice to appear under Pereirahad been served

(1st Cir. 2008)). Any factual findings made
by the district court are reviewed for clear
error, and its ‘‘ultimate ruling’’ for abuse
of discretion. Id.
IV.
[6] Mendoza’s overarching reason for
requesting the withdrawal of his guilty
plea is that, in his view, the immigration
court’s 2014 removal order -- upon which
his reentry after deportation conviction is
premised -- is invalid because the immigration court lacked jurisdiction over his removal proceedings. His theory rests on the
contention that the notice to appear that
initiated his removal proceedings in 2014
was defective because it did not contain
the date or time of his removal hearing.
Mendoza avers that the inclusion of that
information was required both by statute,
see 8 U.S.C. § 1229(a)(1), and by the Supreme Court’s decision in Pereira. Because
his removal is a ‘‘nullity,’’ his argument
goes, it cannot support his conviction, and
he is innocent of that offense. Thus, he
contends that the district court erred in
not allowing him to withdraw his guilty
plea.
We have already squarely rejected the
contention that the omission of the initial
hearing date and time in a notice to appear
deprives the immigration court of jurisdiction over a removal proceeding. See Goncalves Pontes v. Barr, 938 F.3d 1 (1st Cir.
2019); see also Arévalo v. Barr, 950 F.3d
15, 20 (1st Cir. 2020); Ferreira v. Barr, 939
F.3d 44, 45 (1st Cir. 2019). We held in
Goncalves Pontes that the jurisdiction of
an immigration court is governed by agency regulation, see 8 C.F.R. § 1003.14(a),
not by 8 U.S.C. § 1229(a) -- the statute
upon which Mendoza relies -- and that the
were void for lack of subject-matter jurisdiction and that, at the time, no court of appeals
had addressed the issue.

Appendix A
4

162

963 FEDERAL REPORTER, 3d SERIES

regulations do not concern the written notice contemplated in that statute. See 938
F.3d at 3-4, 6. While section 1229(a) governs the information that must be provided
to noncitizens about their impending removal hearings -- i.e., ‘‘the ‘time’ and
‘place,’ that would enable them ‘to appear’
at the removal hearing in the first place,’’
id. at 6 (quoting Pereira, 138 S. Ct. at
2115) -- the regulations ‘‘set forth the process by which the immigration court obtains jurisdiction over a removal proceeding,’’ id. (citing 8 C.F.R. § 1003.14). And
the regulations do not require that the
time and place of the initial hearing be
included in the notice to appear in order to
commence removal proceedings. Id. at 4.
Thus, we concluded that an undated notice
to appear that complies with the regulations is effective to confer jurisdiction upon
the immigration court. Id. at 7.
In this case, there is no suggestion that
Mendoza’s notice to appear did not comply
with the regulations. Therefore, pursuant
to our holding in Goncalves Pontes, Mendoza’s jurisdictional quarrel is unavailing.
However, Mendoza resists this conclusion by arguing that our holding in Goncalves Pontes depends on the proper service of a notice of hearing that ‘‘cures’’ an
undated notice to appear. Because he was
not properly or timely served with the
notice of hearing, he says, the defect in the
notice to appear was not cured, and thus,
this ‘‘two-step process’’ did not vest the
immigration court with jurisdiction.
Contrary to Mendoza’s contention, we
did not tie our holding in Goncalves Pontes
to a successful service of a notice of hearing.3 In fact, we held -- without mentioning
service of a notice of hearing -- that other
3.

This is not to say that Mendoza could not
have successfully objected to the timing of his
removal hearing due to inadequate or untimely service of notice. He made no such argument, and instead waived his right to appeal

documents, such as a notice of referral to
an immigration judge and a notice of intention to rescind and request for hearing by
an alien, see 8 C.F.R. § 1003.13, are charging documents that ‘‘establish the immigration court’s jurisdiction over a case,
commencing removal proceedings against
an alien without resort to a Notice to
Appear.’’ Goncalves Pontes, 938 F.3d at 67. We merely added at the end of the
opinion, as a ‘‘coda’’ -- meaning in addition
to what we had previously expressed -that the Board of Immigration Appeals
(the ‘‘BIA’’) had ‘‘likewise concluded that
[a notice to appear] that is served without
specification of the time and place of the
initial hearing may be sufficient to confer
subject-matter jurisdiction on an immigration court in removal proceedings.’’ Id. at 7
(emphasis added) (citing In re BermúdezCota, 27 I. & N. Dec. 441, 447 (BIA 2018)).
And in Bermúdez-Cota, the BIA ‘‘clarified
its view’’ that a notice to appear ‘‘ ‘vests an
Immigration Judge with jurisdiction over
the removal proceedings’ when a notice of
hearing is sent to the alien in advance of
those proceedings.’’ Id. (quoting Bermúdez-Cota, 27 I. & N. Dec. at 447). We
simply concluded from this that the agency’s interpretation of its regulations was
‘‘entitled to great deference.’’ Id. (quoting
Sidell v. Comm’r., 225 F.3d 103, 109 (1st
Cir. 2000)). Notably, we clarified in a footnote that we did not decide the question of
whether a two-step process could satisfy
the time and date requirements of the
statute at issue in Pereira. Id. at 7 n.2.
Moreover, we have confirmed the holding
in Goncalves Pontes that jurisdiction vests
with the issuance of a notice to appear that
complies with the regulations in subsequent cases without resorting to an inquiry
to the Board of Immigration Appeals from the
decision of the immigration court. Nor, for
that matter, does he contend that he can
satisfy the requirements of section 1326.

Appendix A
5

163

U.S. v. NAPOUT
Cite as 963 F.3d 163 (2nd Cir. 2020)

into whether service of a notice of hearing
was appropriate or was even made. See,
e.g., Ferreira, 939 F.3d at 45. Therefore,
even if neither Mendoza nor his counsel
was served with the notice of hearing, as
Mendoza avers, that does not defeat the
application of Goncalves Pontes’s holding,
which confirms that the immigration court
had jurisdiction over his removal.
Next, Mendoza attempts to circumvent
Goncalves Pontes’s holding by arguing that
it was wrongly decided. But the law of the
circuit doctrine dooms this claim, as we are
‘‘bound by prior panel decisions that are
closely on point,’’ United States v. Wurie,
867 F.3d 28, 34 (1st Cir. 2017) (quoting San
Juan Cable LLC v. P.R. Tel. Co., 612 F.3d
25, 33 (1st Cir. 2010)), ‘‘absent any intervening authority,’’ Mass. Delivery Ass’n v.
Healey, 821 F.3d 187, 192 (1st Cir. 2016)
(quoting United States v. Mouscardy, 722
F.3d 68, 77 (1st Cir. 2013)). Mendoza does
not suggest that there is any such authority, nor does he ‘‘offer[ ] a sound reason for
believing that the [Goncalves Pontes] panel
would change its collective mind,’’ Wurie,
867 F.3d at 34. Hence, Goncalves Pontescontrols our decision here, and Mendoza’s
jurisdictional argument fails, and since he
does not otherwise argue that he can satisfy the requirements of section 1326(d) for
collaterally challenging his removal order
in this subsequent criminal proceeding, his
appeal fails.
V.
For the foregoing reasons, the district
court’s denial of Mendoza’s motion to withdraw his guilty plea and dismiss the indictment is affirmed.
Affirmed.

v.
Juan ángel NAPOUT, José Maria
Marin, DefendantsAppellants.1
Nos. 18-2750 (L), 18-2820 (Con)
August Term, 2019
18-2820
United States Court of Appeals,
Second Circuit.
Argued: November 7, 2019
Decided: June 22, 2020
Background: Defendants were convicted
in the United States District Court for the
Eastern District of New York, Pamela K.
Chen, J., of Racketeer Influenced and Corrupt Organizations (RICO) Act conspiracy,
conspiracy to commit honest services wire
fraud, and money laundering conspiracy,
all arising out of alleged payments of
bribes to officials of the global and regional soccer organizations in exchange for
valuable broadcasting and marketing contracts. Defendants appealed.
Holdings: The Court of Appeals, Sack,
Senior Circuit Judge, held that:
(1) government overcame presumption
against territoriality in connection
with conspiracy to commit honest services wire fraud;
(2) honest services wire fraud statute was
not void for vagueness as applied to
defendants;
(3) evidence supported defendants’ convictions for honest services wire fraud;

,
1.

UNITED STATES of America,
Appellee,

(4) probative value of evidence or questioning of witnesses about whether com-

The Clerk of Court is respectfully directed to

amend the official caption as listed above.

Appendix A
6

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW HAMPSHIRE

United States of America
v.
Roberto Mendoza-Sanchez

Criminal No. 17-cr-189-JD
Opinion No. 2018 DNH 218

O R D E R
The United States charged Roberto Mendoza-Sanchez with one
count of illegally reentering the United States after removal in
-Sanchez pleaded guilty

offense

Appendix B
1

Mendoza-Sanchez or that the court should allow him to withdraw
his guilty plea if those facts show that he is legally innocent.
Background
Immigration authorities arrested Mendoza-Sanchez on May 7,
2014.

On May 8, Mendoza-Sanchez was served with a notice to

appear
set.”

hearing at a date and time “[t]o be
On May 28, 2014, the government served

Mendoza

that included the
which was June 4, 2014.

Mendoza-

requested
voluntary departure, and waived his right to appeal the
immigration judge’s findings.
The immigration judge denied Mendoza-Sanchez’s request for
voluntary departure and ordered removal.

Mendoza-Sanchez was

removed to Mexico on June 26, 2014.

He was found back in the

United States on November 28, 2017.

The government thereafter

brought the illegal reentry charges against Mendoza-Sanchez that
are at issue in this case.

,

Mendoza-Sanchez contends, the removal order was entered without
2

Appendix B
2

jurisdiction

has been served.

The government objects on the ground that

Mendoza-Sanchez’s challenge to the removal order is a collateral
attack, and he does not meet the prerequisites listed under
§ 1326(d) for making a collateral attack.
A.

Pereira’s Effect on Immigration Courts’ Subject Matter
Jurisdiction

In Pereira, the Supreme Court addressed whether the “stoptime rule” is triggered when the government serves on a

appear
“[a]
notice that does not inform a noncitizen when and where to
3

Appendix B
3

appear for removal proceedings is not a ‘notice to appear under
§ 1229(a)’ and therefore does not trigger the stop-time rule.”

s subject matter
when a noncitizen has

4

Appendix B
4

B. Application to Mendoza-Sanchez
The NTA the government served on Mendoza-Sanchez was
deficient under Pereira because it did not provide a date and
time for the removal hearing at which he was ordered to appear.
Nevertheless, the government argues that Mendoza-Sanchez cannot
challenge the validity of the removal order in this criminal
the prerequisites to
make a

specified by

§

appears to assert that the court should
Virgen-Ponce and declare the
1326(d)’s
prerequisites to collateral attack.
5

Virgen-Ponce and Zapata-

Appendix B
5

Cortinas1 are distinguishable because Mendoza-Sanchez was served
with a supplemental notice that cured the defect in the initial

second NTA that included date and time for hearing).
The court also disagrees with Virgen-Ponce and ZapataCortinas to the extent they held that a noncitizen need not meet
§ 1326(d)’s prerequisites for a collateral attack where the

1

his
2

Appendix B
6

Therefore, Mendoza-Sanchez must satisfy
in order to challenge the validity of
that underlies the illegal reentry charge.

§
did not exhaust the
because he

appealed to the BIA).
Second, Mendoza-

review of the removal order.

It is undisputed that Mendoza-

Sanchez knowingly and voluntarily waived his right to appeal the
removal order to the BIA and the First Circuit.
Third, because Mendoza-Sanchez had actual notice of the
date and time of the hearing, the lack of a date and time on the
7

Appendix B
7

first NTA did not prejudice him
the removal

Pereira

the alien in Pereira, he was in fact present at the removal
hearing. . . . Absent from the motion [to dismiss] is any
suggestion that he suffered prejudice from the lack of notice,
which means Defendant’s collateral challenge to the 2008 removal
order is also barred by § 1326(d)(3).”).

Because he does not

satisfy any of the three prerequisites to make a collateral
attack on the removal order, Mendoza-Sanchez cannot challenge
the immigration court’s order of removal in this proceeding.

8

Appendix B
8

Conclusion
For the foregoing reasons, Mendoza-Sanchez’s motion to
to dismiss the indictment (doc.
denied.

__________________________
Joseph A. DiClerico, Jr.
United States District Judge

November 5, 2018
cc:

Anna Z. Krasinski, Esq.
Jonathan R. Saxe, Esq.
U.S. Probation
U.S. Marshal

9

Appendix B
9

